7

i

f

, ID n-st-is"

NO:

i.

"* "‘if

ff

IN THE
SUPREME COURT OF THE UNITED STATES
il$r

JUN - 8 282]

MARIO DANIELS,
Petitioner,

OfQCHOF It^CLiBK
*

V.
UNITED STATES OF AMERICA,
i

Respondent.

PETITION FOR WRIT OF CERTIORARI

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FIRST DISTRICT OF APPEALS

\

Mario Daniels, DC # N17238
DeSoto Correctional Institution Annex
13617 Southeast Highway 70
Arcadia, Florida 34266-7800

RECEIVED

PROSE

jUL -8

RECEIVED

85®E2S£S£
\

JUN 1 5 2021

1

SUPREME7COURTm**

I _J

[

QUESTION PRESENTED
I.

Whether the First District Court of Appeals unauthorized abrogation of an

Essential Element of the statutory offense of Aggravated Assault deprived Daniels
of his Substantive Rights, and to have his criminal conviction rest upon a jury’s
determination that he is guilty beyond a reasonable doubt of the offense as
statutorily defined by the Florida Legislature?

II.

Whether the “egregiously invalid” legal reasoning espoused by the Florida

First District Court of Appeals as a rational for denying Daniels’ appeal
demonstrates a willful violation of the “separation of powers doctrine,” which
effectively denied Daniels his Sixth Amendment Right to be informed of the nature
and cause of the accusation brought against him by the government?

11

■4

TABLE OF CONTENTS
Table of Contents

1

S3

Index to Appendices
Table of Authorities
Opinion Below

Ul

Statement of Jurisdiction

QJ

Statement of the Case
Reasons Why This Writ Should Issue

-to

Argument

AQ-J3

Issue I

.do-13

WHETHER THE FIRST DISTRICT COURT OF APPEALS
UNAUTHORIZED ABROGATION OF AN ESSENTIAL
ELEMENT OF THE STATUTORY OFFENSE OF
AGGRAVATED ASSAULT DEPRIVED DANIELS OF HIS
SUBSTANTIVE RIGHTS, AND TO HAVE HIS CRIMINAL
CONVICTION REST UPON A JURY’S DETERMINATION
THAT HE IS GUILTY BEYOND A REASONABLE DOUBT
OF THE OFFENSE AS STATUTORILY DEFINED BY THE
FLORIDA LEGISLATURE?...................................................

Aojtt

Argument
Issue II
WHETHER THE “EGREGIOUSLY INVALID” LEGAL
REASONING ESPOUSED BY THE FLORIDA FIRST
DISTRICT COURT OF APPEALS AS A RATIONAL FOR
DENYING DANIELS’ APPEAL DEMONSTRATES A
WILLFUL VIOLATION OF THE “SEPARATION OF
POWERS DOCTRINE,” WHICH EFFECTIVELY DENIED
DANIELS HIS SIXTH AMENDMENT RIGHT TO BE

i

i

V

INFORMED OF THE NATURE AND CAUSE OF THE
ACCUSATION BROUGHT AGAINST HIM BY THE
GOVERNMENT?...........................................................
Certificate of Service

S3

Certificate of Compliance With Type-Volume Limit

i

V

2(0

}

INDEX TO APPENDICES
A. Florida First District Court of Appeals Decision
in State v. Daniels.................................................................
B. Florida Supreme Court decision declining to accept jurisdiction

X

\\

n\

!

*

TABLE OF AUTHORITIES
Cases
A.R. Douglass, Inc. v. McRainey, 102 Fla. 1141
137 So. 157 (Fla. 1931)....................................
Armstrong v. City of Edgewater, 157 So. 2d 422 (Fla. 1963)

.JiJ

Auld, 450 So. 2d at 219)
Battle v. State, 292 So.2d 594 (2d DCA Fla. 1974)

.vtAj

Bush v. Schiavo, 885 So. 2d 321 (Fla. 2004)
Chiles v.

C, A £, & A 589 So. 2d 260 (Fla. 1991)

Fla. House ofReps. v. Crist, 999 So. 2d 601 (Fla. 2008)
FongFoo v. United States, 369 U. S. 141 (1962)
Fussell v. State, 154 So. 3d 1233 (Fla. 1st DCA 2015)
Gilbert v. State, 329 So.2d 339 (Fla. 3d DCA 1976)
Gilbert v. State, 344 So. 2d 564 (Fla. 1977)

:iM <

y\_J
Moj

]xj
M3

....... VV

In Re Winship, 397 U.S. 358, 364, (1970)
Leland v Oregon, 343 U.S. 790 (1952)
McCullers v. State, 206 So.2d 30 (4th DCA Fla. 1968)
Nelson v. State, 157 So.2d 96 (3d DCA Fla. 1963)

\X(

Patterson vNew York, 432 U.S. 197
State v. Burris, 875 So. 2d 408 (Fla. 2004)
State v. White, 324 So.2d 630 (Fla. 1975)
Sullivan v. Louisiana, 508 US 275 (1993)

3

MS' 7

r

*

Task v. Rogers, 246 So. 3d 1304 (Fla. 1st DCA 2018)

ikJ

United States v. Gaudin, 515 U.S. 506 (1995)
White v. State, 299 So. 2d 143 (Fla. 1st DCA 1974)

i R

Statutes
Section 784.011(1), of the Florida Statutes (2016)
Section 784.021(1), of the Florida Statutes (2016)
United States Code
28U.S.C. §1257(a)
i

V

OPINION BELOW
The Florida first district court of appeals issued its June 9, 2020 Opinion
denying Petitioner’s Direct Appeal based on an deliberate “misinterpretation” of
Florida law that is plainly contrary to the law as espoused by the Florida
Legislature, and determined constitutional by the Florida Supreme Court’s
Precedent established in the case of State v. White, 324 So.2d 630 (Fla. 1975); see
also Gilbert v. State, 344 So. 2d 564 (Fla. 1977).
The Florida first district court of appeals subsequently denied Daniels’
Motion for Rehearing on June 19, 2020. The opinion of the district court of
Florida is reproduced in Appendix “A.”

This Court has jurisdiction under 28

U.S.C. §1257(a) to hear this cause.
STATEMENT OF JURISDICTION
The Decision of the Florida Supreme Court to decline to accept jurisdiction
to bring the district courts of Florida in conformity with the Law enacted by the
Florida Legislature, and established through the Precedent preserved via the case
of State v. White, effectively sanctioned the district courts’ usurpation of legislative
authority. The district court’s judgment was entered on March 23, 2020. A timely
Motion for Rehearing was -filed and, subsequently, denied by the district court June
19, 2020.

5“

V

STATEMENT OF THE CASE
The commencement of this cause originated from the April 2, 2016 arrest of
Petitioner on the allegations of discharging a firearm from a vehicle. On April 12,
2016, pursuant to the aforesaid accusations the State of Florida filed an
Information charging Daniels with (1) Aggravated Assault with a firearm upon
Malinda Jackson; (2) Discharging a firearm from a vehicle; and (3), Possession of
a firearm by a convicted felon. (See Appendix, Exhibit “D”).
Petitioner’s trial commenced on April 20, 2017 with the State of Florida
making the allegations that the jury would testimony that the occupants of a
Burgundy Chevrolet Impala saw Daniels fire a firearm two times while inside the
car with his girlfriend, Malinda Jackson. The State Attorney then told the jury that
law enforcement officers went to Daniels’ ex-girlfriend’s house to interview her
and try to search [the home] but did not find a gun.
During the defense’s opening, Daniels argued to the jury that the State’s
entire case was tailored upon the circumstantial evidence presented primarily
through the testimony of Jackson’s friends and family, and that there not one thread
of physical evidence demonstrating that committed the charged offenses.
Preceding the conclusion of the State’s case-in-chief, the trial court
questioned Daniels about his decision of whether to testify and if he understood, to
which Daniels replied that he understood and the trial court said it will ask his

4

>

A

decision later in the day. The trial court then addressed defense counsel on the
charges and asked about improper exhibition of a weapon being a category one
lesser on count one and if either side requested that. Daniels asked the trial court to
give the instruction on the lesser count. The State asked that under count one on
aggravated assault after the fourth element that actual fear on the part of the person
need not be shown be read in the jury instructions. Daniels asked that beyond a
reasonable doubt instruction be read and the trial court stated it was in the
instruction.
Thereafter, defense counsel informed the court that the defense would not be
putting on any evidence.

The trial court inquired whether Daniels would be

testifying, to which counsel said he would not. The parties agreed that instructions
to be given to jury would include lesser-included charges. (T.T. 321-333). Outside
the presence of the jury, the defense motioned the trial court for a Judgment of
Acquittal based on the State’s failure to prove every essential element of the
offense of aggravated assault. (T.T. 314-316).
During its closing argument, the State stated that the elements necessary for
a conviction of aggravated assault only required proof of circumstances would
induce a well-founded fear in the mind of a reasonable person. (T.T. 354-364).
Daniels gave his closing argument and stated that the State had not proven Jackson
was in fear and the state’s evidence was illogical and conflicting. (T.T. 354-364).

1

The State then gave its final argument and reiterated Daniels’ argument that
the State picked and chose to mislead the jury to think he did something he did not
do and Daniels objected as an incorrect statement of what was said, but the trial
court overruled.

(T.T. 371-372).

The trial court gave the State requested

instructions, without objections from the defense, and the jury found Daniels guilty
of aggravated assault and discharging a firearm from a vehicle. (T.T. 383).
Daniels timely prosecuted an appeal with appointed appellate counsel filing
an Anders' brief, contending that the appeal was without merit, thought “[T]he
application of the reasonable person standard regarding the element of
aggravated assault appeared dispositive.”
Notwithstanding appellate counsel’s Anders brief, the First District Court of
Appeals “ ...directed briefing as to whether Daniels' motion for judgment of
acquittal on his aggravated assault charge should have been granted based on the
victim's testimony that she was not put in fear. ”
Following briefing, the district court of appeals determined that “...our
precedent requires affirmance, "i.e.,

that a well-founded fear of violence or

imminent peril on the part of the victim is not an element of the statutory
offense of aggravated assault,”
This Petition for a Writ of Certiorari now follows.

386 U.S. 738 (1967)

8

REASONS WHY THIS WRIT SHOULD ISSUE
I.

IN THE CASE OF United States v. Gaudin, 515 U.S. 506, (1995), THIS

COURT’S DECISION MADE CLEAR THAT THE FIFTH AMENDMENT TO
THE UNITED STATES CONSTITUTION GUARANTEES THAT NO ONE
WILL BE DEPRIVED OF LIBERTY WITHOUT "DUE PROCESS OF LAW";

I

AND THE SIXTH, THAT "IN ALL CRIMINAL PROSECUTIONS, THE
ACCUSED SHALL ENJOY THE RIGHT TO A SPEEDY AND PUBLIC TRIAL,
BY AN IMPARTIAL JURY, AND TO BE INFORMED OF THE NATURE AND

i

CAUSE OF THE ACCUSATION."
THE COURT FURTHER DETERMINED, “WE HAVE HELD THAT
THESE PROVISIONS REQUIRE CRIMINAL CONVICTIONS TO REST UPON
A JURY DETERMINATION THAT THE DEFENDANT IS GUILTY OF EVERY
ELEMENT OF THE CRIME WITH WHICH HE IS CHARGED, BEYOND A
REASONABLE DOUBT. Sullivan v. Louisiana, 508 US 275, 277-278 (1993).
i

II.

IT HAS BEEN LONG SETTLED THAT THE CONSTITUTION

PROTECTS EVERY CRIMINAL DEFENDANT "AGAINST CONVICTION
EXCEPT UPON PROOF BEYOND A REASONABLE DOUBT OF EVERY
FACT NECESSARY TO CONSTITUTE THE CRIME WITH WHICH HE IS
CHARGED." In Re Winship, 397 U.S. 358, 364, (1970).

IT IS EQUALLY

CLEAR THAT THE "CONSTITUTION GIVES A CRIMINAL DEFENDANT
THE RIGHT TO DEMAND THAT A JURY FIND HIM GUILTY OF ALL THE
ELEMENTS OF THE CRIME WITH WHICH HE IS CHARGED." United States
v. Gaudin, 515 U.S. 506, 511 (1995).

i

1

ARGUMENT
ISSUE I
WHETHER THE FIRST DISTRICT COURT OF APPEALS
UNAUTHORIZED ABROGATION OF AN ESSENTIAL
ELEMENT
OF
THE
STATUTORY
OFFENSE
OF
AGGRAVATED ASSAULT DEPRIVED DANIELS OF HIS
SUBSTANTIVE RIGHTS, AND TO HAVE HIS CRIMINAL
CONVICTION REST UPON A JURY’S DETERMINATION
THAT HE IS GUILTY BEYOND A REASONABLE DOUBT OF
THE OFFENSE AS STATUTORILY DEFINED BY THE
FLORIDA LEGISLATURE?
i

Respectfully, this Court should Grant this Writ of Certiorari to review the
judgment of the Florida First District Court of Appeals because Daniels’ conviction
and sentence derives from “decisional law” based upon an “egregiously invalid
foundation.” Fong Foo v. United States, 369 U. S. 141, 143, 7 L. Ed. 2d 629
(1962).
Specifically, when the State of Florida elected the charge Daniels with the
offense of Aggravated Assault, it did so pursuant to the criminal offense as
statutorily defined by the Florida Legislature. Section 784.011(1). of the Florida
Statutes (2016) defined "assault" as:
“An ‘assault’ is an intentional, unlawful threat by word or
act to do violence to the person of another, coupled with an
apparent ability to do so, and doing some act which creates a wellfounded fear in such other person that such violence is imminent.”

10

I

:

Section 784.021(1), of the Florida Statutes (2016) then builds upon
§784.011(1) in defining an "aggravated assault" as:
(1) An "aggravated assault" is an assault:
(a) With a deadly weapon without intent to kill; or
(b) With an intent to commit a felony.
In the case of State v. White, 324 So.2d 630 (Fla. 1975), the Florida Supreme
Court held that “[AJssault does require awareness by the victim of imminent peril,
or that a well-founded fear by the victim of violence or imminent peril is an
element of aggravated assault. ” Accordingly, the State Florida was obligated to
present evidence during Daniels’ trial that he was guilty beyond a reasonable doubt
of “conduct” that caused “a well-founded fear of violence or imminent peril on the
part of the victim.”
The record is perceptibly deficient with regards to any evidence that Daniels
caused “a well-founded fear of violence or imminent peril on the part of the
victim.”

However, and much to Daniels’ detriment, the trial courts, with the

misguided blessings of the intermediate courts, have embarked on a dangerous
campaign that erroneously informs the State that it is no longer required to prove
that “[A] well-founded fear of violence or imminent peril on the part of the
victim is an essential element of the statutory offense of aggravated assault.”
Instead, as opposed to meeting the aforesaid statutory obligations, the government
need only show that "... [a] reasonable person would experience a well-founded

U

k;

fear of imminent harm..." to fulfill the requirement of aggravated assault. See Task
v. Rogers, 246 So. 3d 1304, 1305 (Fla. 1st DCA 2018) ("Appellate courts apply an
objective standard in determining whether a reasonable person would experience a
well-founded fear of imminent harm"); Fussell v. State, 154 So. 3d 1233, 1236
(Fla. 1st DCA 2015) (In determining whether evidence of assault is sufficient
regarding the victim's fear, "[w]e have rejected the view that the state must meet
both an objective and a subjective standard.").
Suffice it to say, the legal reasonings espoused by the appeals courts of
Florida completely contravenes the law as defined by the Florida Legislature.
Consequently, when other district courts of appeals issued conflicting decisions
with the Florida First District Court of Appeals’ correct legal conclusion on this
fundamental principle of law in the case of White v. State, 299 So. 2d 143 (Fla. 1st
DCA 1974), that “[T]he victim's well-founded fear that violence is imminent is an
element of the statutory offense of aggravated assault, ” the Florida Supreme Court
determine that the first district court was “correct, affirmed” and, therefore,
“...disapproved the conflicting Battle v. State, 292 So.2d 594 (2d DCA Fla.
1974), and McCullers v. State, 206 So.2d 30 (4th DCA Fla. 1968), cert, denied,
210 So.2d 868 (Fla. 1968), decisions on this point, as well as the conflicting
decision in Nelson v. State, 157 So.2d 96 (3d DCA Fla. 1963), cert, denied, 165
So.2d 178 (Fla.19641.”

12

7

In White, the Florida Supreme Court held that “[AJssault does require
awareness by the victim of imminent peril, or that a well-founded fear by the victim
of violence or imminent peril is an element of aggravated assault. ” The Supreme
Court would then Reiterated its previous decision in deciding the case of Gilbert v.
State, 344 So. 2d 564 (Fla. 1977). There, that Court “quashed” the Third District’s
decision in Gilbert v. State, 329 So.2d 339 (Fla.-3d DCA 1976) where the district
court’s decisions conflicted with its decision on the same point of law where the
petitioner was found guilty of aggravated assault.
As can be easily deduced, each of these cases stood for the rule of law,
“[T]hat a well-founded fear of violence or imminent peril on the part of the victim
is not an element of the statutory offense of aggravated assault. ” Hence, by
overturning these cases, the Florida Supreme Court emphasized that it disapproved
of the holdings of every district court’s ruling that was contrary; i.e., “...the
victim's well-founded fear that violence is imminent is an element of the statutory
offense of aggravated assault.”

13

•/

ARGUMENT
ISSUE II
WHETHER THE “EGREGIOUSLY INVALID” LEGAL
REASONING ESPOUSED BY THE FLORIDA FIRST
DISTRICT COURT OF APPEALS AS A RATIONAL FOR
DENYING DANIELS’ APPEAL DEMONSTRATES A
WILLFUL VIOLATION OF THE “SEPARATION OF
POWERS DOCTRINE,” WHICH EFFECTIVELY DENIED
DANIELS HIS SIXTH AMENDMENT RIGHT TO BE
INFORMED OF THE NATURE AND CAUSE OF THE
ACCUSATION BROUGHT AGAINST HIM BY THE
GOVERNMENT?
Most importantly, the bedrock of the Florida Constitution is the Separation
of Powers Doctrine, which provides that "[n]o person belonging to one branch
shall exercise any powers appertaining to either of the other branches unless
expressly provided" in the Constitution. Art. II 3, Fla. Const.

In construing

Florida’s Constitution, Florida courts have traditionally applied a strict separation
of powers doctrine. Fla. House of Reps. v. Crist, 999 So. 2d 601, 611 (Fla. 2008)
(quoting Bush v. Schiavo, 885 So. 2d 321, 329 (Fla. 2004)). The separation of
powers doctrine encompasses two fundamental prohibitions, the first being "that
no branch may encroach upon the powers of another." Chiles v. Children A, B, C,
D, E, & F, 589 So. 2d 260, 264 (Fla. 1991). The doctrine is directed only to those
powers which belong exclusively to a single branch of government.

Thus, a

branch of government is prohibited from exercising a power only when that power
has been constitutionally assigned exclusively to another branch.

i
i

Secondly, the courts are courts of law, not a legislature.

Subject to the

strictures of state and federal constitutions, it is for the legislatures to declare the
public policy of what acts constitute a criminal offense in the State of Florida, what
elements must be proven to establish the commission of those offenses, and what
may constitute an affirmative defense to criminal liability. See State v. Burris, 875
So. 2d 408, 413-14 (Fla. 2004) ("To construe the statute in a way that would extend
or modify its express terms would be an inappropriate abrogation of legislative
power." (citing Auld, 450 So. 2d at 219) ("[W]hen the language of the statute is
clear and unambiguous and conveys a clear and definite meaning, there is no
occasion for resorting to the rules of statutory interpretation and construction.
(quoting A.R. Douglass, Inc. v. McRainey, 102 Fla. 1141, 137 So. 157, 159 (Fla.
1931); Armstrong v. City of Edgewater, 157 So. 2d 422, 425 (Fla. 1963); Cambell
v. State, 37 So. 3d 948. 950 (Fla. 5th DCA 2010) ("Courts generally do not have
the authority to add elements to a crime that has been put in place statutorily by the
legislature.").
Moreover, the statute that creates the crime in question typically sets forth
those constituent parts. Consequently, a jury must find the existence of each such
element beyond a reasonable doubt. See, e.g., United States v. Gaudin, 515 U.S.
506. 510 (1995); In Re Winship, 397 U.S. 358 (1970). Therefore, the Florida First
District Court of Appeals’ usurpative act of “abrogating” an essential element of

f5

the statutory crime of Aggravated Assault deprived Daniels of his Fifth and Sixth
Amendment rights to Due Process of Law, and to have his criminal conviction rest
upon a jury’s determination that he is guilty of the offense charged beyond a
reasonable doubt.
In the case Sub Judice, by taking away the essential element of the offense
of aggravated assault, the Florida first District court of Appeals violated the
fundamental principles laid down by the Florida Legislature’s enactment of Section
784.011(1), Florida Statutes and Section 784.021(1), Florida Statutes. This Court
held that the Due Process Clause and the Sixth Amendment right to a jury trial
provide a defendant who is charged with a serious offense with the constitutional
right to insist that his guilt be determined beyond a reasonable doubt by a jury.
Sullivan v. Louisiana, 508 U.S. 275, 277-78, (1993).
Reiterating these basic principles, this Court in Gaudin held that the
Constitution "requires criminal convictions to rest upon a jury determination that
the defendant is guilty of every element of the crime with which he is charged
beyond a reasonable doubt." 515 U.S. at 510, 115. More specifically, the Gaudin
Court held that if there are either factual questions or mixed questions of law and
fact with respect to any element of an offense, the defendant has suffered an
infringement upon his constitutional rights if those questions are not submitted to
the jury for proof beyond a reasonable doubt. Id. at 511-15, 522-23.

1£

Moreover, and lest there remain any doubt about the constitutional stature of
the reasonable-doubt standard, the Due Process Clause protects the accused against
conviction except upon proof beyond a reasonable doubt of every fact necessary to
constitute the crime with which he is charged. Hence, because the factfinder is
given the authority to determine a verdict of guilty in accordance with the Due
Process Clause, the prosecution bears the burden of proving all elements of the
offense charged., (see, e.g., Patterson v New York, 432 U.S. 197; Leland v Oregon,
343 U.S. 790 (1952)) and must persuade the factfinder "beyond a reasonable
doubt" of the facts necessary to establish each of those elements.

See, In Re

Winship, 397 US 358 (1970); Cool v United States, 409 US 100 (1972).
This beyond-a-reasonable-doubt requirement, which was adhered to by all
common-law jurisdictions, applies in state as well as federal proceedings.
Moreover, the requirement of proof beyond a reasonable doubt has this vital role in
our criminal procedure for cogent reasons.

Therefore, the accused during a

criminal prosecution has at stake interests of immense importance, both because of
the possibility that he may lose his liberty upon conviction and because of the
certainty that he would be stigmatized by the conviction. Accordingly, a society
that values the good name and freedom of every individual should not condemn a
man for commission of a crime when there is reasonable doubt about his guilt.

17

Here, at the close of the all the evidence at trial, the defense moved for a
Judgment of Acquittal based on the government’s failure to prove beyond a
reasonable doubt the alleged "... victim’s awareness of imminent peril, or that she
had a well-founded fear of violence to her person.” Indeed, the victim explicitly
stated that Daniels committed no action that caused her to be fearful or concerned
about imminent peril to her person. The trial court denied the motion and the state
appellate court infringed on the authority conferred on the Florida Legislature
under Article II, §3 of the Florida Constitution an Affirmed the decision by
concluding that “[T]hat a well-founded fear of violence or imminent peril on
the part of the victim is not an element of the statutory offense of aggravated
assault.”
The Florida First District Court of Appeals’ determination that the essential
element constituting the crime of aggravated assault in Florida is no longer valid
clearly violates Daniels’ Substantive Rights and, therefore, is at odds with the
United States Constitution, the Statutory Law Enacted by the Florida Legislature,
and the Precedents established by the decisions issued by this Court.

18

>)

V

CONCLUSION
Wherefore, it is respectfully requested that this Court grant this Writ of
Certiorari to review the judgment of the Florida First District Court of Appeals.
Dated this 6th day of June 2021.
Respectfully submitted,
/s/
Mario Daniels, DC #N17238
DeSoto Correctional Institution Annex
13617 Southeast Highway 70
Arcadia, Florida 34266-7800
i

CERTIFICATE OF SERVICE
I CERTIFY that a true and correct copy of the foregoing Motion has been
furnished to:
j

Fieri

Office of the Attorney General,
.

1 JLfl-XapAsi} Ta\\ahassa%_j

FL 323T^bv enclosing said document in an envelope with proper

postage affixed, and placing the aforesaid in the hands of DeSoto Correctional
Institution Annex’s Officials for mailing this

day of June 2021.
(

\

/s/
Mario Daniels, DC # N17238

